         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report



       EPA Needs to Improve Management
       Practices to Ensure a Successful
       Customer Technology Solutions Project

       Report No. 10-P-0194

       August 23, 2010
Report Contributors:	                               Rudolph M. Brevard
                                                    Cheryl Reid
                                                    Scott Sammons
                                                    Kyle Denning
                                                    Joseph Cook




Abbreviations

C&A             Certification and Accreditation
CGO             Continuing Governance Organization
CTS             Customer Technology Solutions
EPA             U.S. Environmental Protection Agency
FDCC            Federal Desktop Core Configuration
IV&V            Independent Verification and Validation
MEO             Most Efficient Organization
OEI             Office of Environmental Information
OIG             Office of Inspector General
PWS             Performance Work Statement
QAE             Quality Assurance Evaluators
QASP            Quality Assurance Surveillance Plan
QCP             Quality Control Plan
SOP             Standard Operating Procedure


Cover photo:	     Hardware ready for use during a Customer Technology Solutions deployment.
                  (EPA OIG photo)
                                                                                                        10-P-0194
                        U.S. Environmental Protection Agency                                       August 23, 2010
                        Office of Inspector General


                        At a Glance
                                                                        Catalyst for Improving the Environment

Why We Did This Review                EPA Needs to Improve Management Practices to Ensure
                                      a Successful Customer Technology Solutions Project
The Office of Inspector General
conducted this audit as a result of
receiving Hotline complaints           What We Found
about desktop deployments. We
sought to determine whether the       Although EPA indicated it could avoid spending more than $115.4 million
U.S. Environmental Protection         over 8.5 years by consolidating the desktop computing environment,
Agency (EPA):                         improved management practices are needed to ensure this cost avoidance
                                      is realized. CTS scheduled replacing 11,744 computers in 12 months, and
 •	 Responded to resolve issues       also began providing maintenance and support for those computers and
    identified during Customer        attached network printers, without sufficient planning to ensure ongoing
    Technology Solutions (CTS)        success. This lack of planning has led to questions about (1) the quality of
    deployment.                       the helpdesk supporting the project; (2) a quality management program
 •	 Implemented processes to          that is not finalized; (3) key business processes to support ongoing
    eliminate recurring problems      operations not being defined; and (4) vacant leadership positions needed to
    with deploying CTS.               facilitate communication and coordination with customers about CTS
 •	 Implemented oversight 
           equipment deployments. These conditions resulted in many end users
    practices for the CTS 
           voicing dissatisfaction with the CTS deployment and continued
    contract. 
                       dissatisfaction with helpdesk support.
Background                            The CTS technical proposal indicates the consolidated desktop services
CTS service includes acquiring,       solution will result in increased customer satisfaction and provide the
installing, maintaining, and          technical tools and training needed to support EPA’s critical programs.
supporting computers and              However, missteps in project planning led to sustained negative customer
network printers. The CTS             acceptance of CTS. Without CTS improving its service quality, end users
deployment schedule projected         may foster a degree of skepticism that will be hard for EPA to overcome.
11,744 computers to be replaced
in 18 locations across the United      What We Recommend
States. CTS is provisioned
through EPA’s Working Capital
                                      We made various recommendations to the Director of the Office of
Fund and provides and
coordinates all information           Technology Operations and Planning, Office of Environmental
technology end-user support and       Information, to include:
services for Headquarters and
                                        •	 Implementing and maintaining a helpdesk that responds to and
field offices.
                                           resolves issues in a manner that meets performance metrics;
                                        •	 Improving the CTS Quality Management Program by developing
For further information, contact           and implementing an Independent Verification and Validation
our Office of Congressional,               process and finalizing the Quality Assurance Surveillance Plan;
Public Affairs and Management
at (202) 566-2391.
                                        •	 Documenting milestones for the completion of overdue and future
                                           business process documents; and
To view the full report,                •	 Filling vacant CTS leadership positions.
click on the following link:
www.epa.gov/oig/reports/2010/         In general, the Agency agreed with the findings and recommendations.
20100823-10-P-0194.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                               August 23, 2010

MEMORANDUM

SUBJECT:	              EPA Needs to Improve Management Practices to Ensure a Successful
                       Customer Technology Solutions Project
                       Report No. 10-P-0194


FROM:                  Arthur A. Elkins, Jr.
                       Inspector General

TO:	                   Vaughn Noga
                       Director, Office of Technology Operations and Planning
                       Office of Environmental Information


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $177,268.

Action Required

We have closed this report in our audit tracking system based on your response to the draft
report. We believe the proposed actions, when implemented, will adequately address the
report’s findings and recommendations. Please provide updated information in EPA’s
Management Audit Tracking System as you complete each planned corrective action or revise
any corrective actions and/or milestone dates. If you are unable to meet your planned
milestones, or believe other corrective actions are warranted, please send us a memorandum
stating why you are revising the milestones or why you are proposing alternative corrective
actions, as required by EPA Manual 2750.
We would like to thank your staff for their cooperation. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Rudy Brevard at
(202) 566-0893 or brevard.rudy@epa.gov.
EPA Needs to Improve Management Practices to Ensure a                                                                      10-P-0194
Successful Customer Technology Solutions Project


                                  Table of Contents 


Chapters 

   1    Introduction .......................................................................................................      1         


                Purpose ......................................................................................................    1             

                Background ................................................................................................       1             

                Noteworthy Achievements ..........................................................................                2

                Scope and Methodology..............................................................................               2             

                Prior Reporting ...........................................................................................       3             


   2    CTS Helpdesk Lacks Quality.............................................................................                   4         


                Helpdesk Responsiveness Is Lengthy .......................................................                        4

                Technicians’ Skill Levels Are Inconsistent ..................................................                     4

                Key Helpdesk Processes Are Inconsistent and Lacking ............................                                  5

                Recommendations .....................................................................................             6             

                Agency Response and OIG Comments ......................................................                           6


   3    CTS Lacks an Effective Quality Management Program..................................                                       7         


                CTS Quality Assurance Plan Is Not Finalized .............................................                         7

                Contractor Performance Measurements Are Not Validated by EPA ...........                                          7

                Recommendations ......................................................................................            8             

                Agency Response and OIG Comments ......................................................                           8


   4    CTS Business Processes Are Not Defined ......................................................                             9         


                Key Planning and Operational Documents Are Not Complete ....................                                      9

                Security Planning Was Not Complete .........................................................                     10 

                Recommendations ......................................................................................           10 

                Agency Response and OIG Comments ......................................................                          10 


   5    Key CTS Positions Are Not Permanently Staffed ...........................................                                12     


                Permanent Program Manager Position Vacant During Deployment ...........                                          12 

                Most Efficient Organization Oversight Team Not in Place...........................                               13 

                Recommendation ........................................................................................          13             

                Agency Response and OIG Comments ......................................................                          13 


   Status of Recommendations and Potential Monetary Benefits..............................                                       14     




                                                          -continued-
EPA Needs to Improve Management Practices to Ensure a                                                                      10-P-0194
Successful Customer Technology Solutions Project



Appendices 

   A    Agency Response to Draft Report....................................................................                      15 


   B    OIG Hotline Complaint Category Descriptions................................................                              19     


   C    Distribution .........................................................................................................   20 

                                                                                   10-P-0194 





                                Chapter 1

                                 Introduction

Purpose
          The Office of Inspector General (OIG) conducted this audit in response to hotline
          complaints about the Customer Technology Solutions (CTS) desktop
          deployments. We evaluated the U.S. Environmental Protection Agency’s (EPA’s)
          implementation of CTS. Specifically, we sought to determine whether EPA had:

             •	 responded to resolve issues identified during CTS deployment,
             •	 put in place processes to eliminate recurring problems with deploying
                CTS, and
             •	 implemented oversight practices for the CTS contract.

Background
          CTS is an Agency Working Capital Fund service that provides and coordinates all
          information technology end-user support and services for Headquarters and its
          field offices. The CTS service includes acquiring, installing, maintaining, and
          supporting computers and
          network printers. CTS        Figure 1-1: Timeframe for Computers Installed
          scheduled 11,744
          computers to be deployed
          in the 12 months from
                                           60%
          October 2008 through                             52%
                                           50%                                 October 2008 –
          September 2009. As
                                           40%                                 January 2009
          illustrated in Figure 1-1, 

          CTS scheduled                    30%

                                                     22%
                                                                26%            February 2009
          52 percent of these              20%                                 – May 2009
          computers for                    10%                                 June 2009 –
          deployment in 4 months,           0%                                 September
          from February 2009                  Percentage of Computers

          through May 2009. This              Installed In Each 4-Month

          deployment placed CTS                         Period

          equipment in 18 locations      Source: OIG compilation and analysis.
          across the United States.

          CTS consolidated the efforts of 22 disparate organizations that provided desktop
          services to EPA into 1 new entity. The Continuing Governance Organization
          (CGO) within EPA’s Office of Environmental Information (OEI) manages the
          new organization. EPA indicated that by implementing CTS it could avoid


                                           1

                                                                                  10-P-0194 



         spending more than $115.4 million over 8.5 years. CTS is composed of two
         entities working as an integrated Federal/industry team - the EPA Most Efficient
         Organization (MEO) and an industry contractor. The Federal portion of the team
         provides program management, customer relations, quality assurance, and
         contract oversight. The contractor is the operational portion of the team that
         delivers the services.

Noteworthy Achievements
         The Agency deployed two other simultaneous initiatives: rolling out the Federal
         Desktop Core Configuration (FDCC) standards and upgrading its electronic mail
         software. The FDCC is a new federal policy, which standardizes resources and
         computer settings to increase security and protect government assets. The
         Agency indicated it upgraded its e-mail services to provide enhancements,
         including a more stable platform, faster performance, and the ability to change
         font size.

Scope and Methodology
         We conducted audit work from April 2009 through May 2010 as a result of
         Hotline complaints of significant problems in deploying the CTS project. We
         performed field work at EPA Headquarters in Washington, DC, and EPA’s
         Research Triangle Park Campus in Durham, North Carolina. We also visited
         Headquarters’ field offices in Las Vegas, Nevada, and the following EPA
         laboratories:

            •   National Exposure Research Laboratory in Athens, Georgia.
            •   National Air and Radiation Laboratory in Montgomery, Alabama.
            •   National Vehicle and Fuel Emissions Laboratory in Ann Arbor, Michigan.

         We performed this audit in accordance with generally accepted government
         auditing standards. These standards require that we plan and perform the audit to
         obtain sufficient and appropriate evidence to provide a reasonable basis for our
         findings and conclusions based on our audit objectives. We believe the evidence
         obtained provides a reasonable basis for our findings and conclusions.

         We reviewed the CTS technical proposal, CTS Performance Work Statement
         (PWS), and quality assurance and quality control documents. We analyzed
         information from 113 OIG Hotline complaints related to the CTS deployment.
         We also analyzed answers from 120 CTS users we interviewed about their
         experiences with CTS. We selected the interviewees using 3 different methods:
         (1) 68 from a CTS user inventory database, (2) 46 according to users' availability
         on the day we visited their location, and (3) 6 from the Hotline complainants.
         Table 1-1 is a breakdown of the number of users that provided feedback by
         source.



                                          2

                                                                                  10-P-0194 




                             Table 1-1: Source of CTS Feedback

                                   Users
                                                            120
                                Interviewed
                                 Hotline
                                                            113
                                Complaints
                             Source: OIG compilation and analysis.



          Appendix B contains the results of our analysis of the hotline complaints. It
          includes a complaint category table with the number of times each issue occurred
          and category descriptions. Also, we interviewed designated program office points
          of contact; CTS sub-contractors, EPA Zone Representatives, and CTS Service
          Desk personnel.

Prior Reporting
          In September 2009, we sent a memorandum to the Acting Assistant Administrator
          for Environmental Information. The memorandum conveyed our concerns that
          EPA should deal quickly with our observations from site visits to three EPA
          facilities. We expressed this was necessary to decrease the turmoil evident during
          CTS deployments in an effort to garner users’ acceptance of the new equipment.
          We also issued Quick Reaction Report No. 10-P-0028, Improved Security
          Planning Needed for the Customer Technology Solutions Project, November 16,
          2009. The report conveyed our concerns regarding needing to develop and
          implement a vulnerability testing and remediation process for CTS equipment.




                                            3

                                                                                   10-P-0194 





                                Chapter 2

                  CTS Helpdesk Lacks Quality
          CTS users voiced dissatisfaction with the quality of CTS helpdesk services. The
          two main helpdesk issues were related to responsiveness and technicians’ skill
          level. Interviews with some CTS helpdesk staff revealed inconsistencies with
          communicating and sharing knowledge, and training. These issues occurred
          because CTS does not have standard helpdesk processes and procedures for use at
          all CTS locations. The CTS Quality Control Plan (QCP) states “To build quality
          into our services, we will establish standardized processes and procedures (SOPs)
          as well as checks and balances (performance monitoring) early in the Phase-in of
          CTS, and train personnel in these measures.” However, CTS did neither of these
          quality-building processes. Unsuccessful helpdesk responses may cause lost
          productivity and down-time for users. Also, it can tarnish a user’s impression of
          an entire organization, such as CTS.

Helpdesk Responsiveness Is Lengthy
          Monthly CTS performance reports include multiple metrics to measure the
          timeliness of helpdesk response and resolution time. These metrics help to
          encourage quick and efficient operations. However, 57 of 120 users interviewed
          and 51 of 113 Hotline complainants reported a major concern with the
          responsiveness of the helpdesk. Two users reported helpdesk responsiveness
          concerns in both their interview and Hotline complaint. The “responsiveness
          issues” were categorized by users’ complaints of lengthy (1) on-hold wait times
          when calling the helpdesk, (2) response time for a technician to arrive at a user’s
          desk to address an issue, and (3) total resolution time of complaint. One user
          indicated that his email request to the helpdesk did not receive a response for 2
          weeks; another user indicated that the initial helpdesk response was prompt, but it
          took 2 weeks for his problem to be resolved. Helpdesk responsiveness was still a
          concern near the end of the year-long deployment period. Users interviewed 11
          months into the deployment disclosed helpdesk responsiveness remained an issue.

Technicians’ Skill Levels Are Inconsistent
          The skill level of CTS technicians was a concern, with 23 of 120 users
          interviewed and 16 of 113 Hotline complainants commenting negatively. While
          CTS users overwhelmingly indicated they were happy with their new equipment
          and that the CTS technicians were polite and courteous, many users expressed
          dissatisfaction with the inconsistent results received when technicians responded
          to a trouble ticket. Users’ comments pertained to CTS technicians that were
          either (1) temporary employees tasked with deploying CTS equipment to users,
          (2) temporary employees being considered to fill permanent positions on the


                                           4

                                                                                      10-P-0194 



          helpdesk, or (3) permanent helpdesk technicians. The inconsistency of
          technicians' skill levels in resolving a reported issue also caused delays in the
          users return to work. At one of the CTS sites we visited, a wide disparity of
          experience existed between two temporary technicians being considered for a
          permanent assignment. One technician had more than 10 years of specialized
          information technology experience. The other technician only had one year of
          basic information technology experience.

Key Helpdesk Processes Are Inconsistent and Lacking
          According to interviews with CTS representatives and technicians, an inconsistent
          approach exists with populating issues and resolutions into a common knowledge
          base. EPA’s April 2009 Service Improvement Plan states that the Agency plans
          to deploy the Knowledge Base component in the helpdesk trouble ticket system.
          This component was supposed to provide a common source for helpdesk
          technicians to retrieve solutions to identified problems. However, implementing
          the component has yet to occur. Some technicians responded they were not aware
          of a common solutions library, while others responded that they used a folder on a
          shared network drive to find resolutions to problems that occurred during
          installments. In addition, a lack of consistency existed in the way technicians at
          different CTS sites shared newly discovered deployment problems with other
          locations. One technician described daily meetings in which issues were shared;
          others said they used emails for sharing, and yet others did not know what the
          proper procedure would be for sharing issues.

          These variations were caused by an inconsistent method for training deployment
          and helpdesk technicians. CTS lacked a uniform training approach across CTS
          deployment sites. For example, at one site deployment staff were given
          classroom training along with on-the-job training by shadowing a more
          experienced technician. At another site, technicians did not receive classroom
          training and were only trained by shadowing more experienced technicians during
          a computer deployment. Furthermore, interviews with helpdesk technicians
          revealed they received limited or no ongoing training.

          In response to the draft report, management indicated they implemented a training
          program followed by all CTS technicians to ensure skills and knowledge remain
          consistent with the needs of the CTS customer base. Also, EPA instituted an
          audit in early 2010 through Office of Administration and Resources Management
          regarding the technical skills and qualifications of the contractor technical staff;
          the audit results defined the skills and qualifications needed for CTS helpdesk staff.
          While management indicated they took steps, more management emphasis is
          needed to ensure that CTS define their business practices and train personnel.




                                            5

                                                                                 10-P-0194 



Recommendations
         We recommend that the Director, Office of Technology Operations and Planning,
         Office of Environmental Information:

         2-1	   Develop and implement a process to help meet all performance metrics
                related to CTS helpdesk responsiveness.

         2-2	   Document a catalog of all helpdesk processes and train all CTS
                technicians on these respective CTS processes, procedures, and
                technologies.

         2-3	   Implement the use of the Knowledge Base component in the trouble ticket
                system.

Agency Response and OIG Comments
         In general, the Agency agreed with the findings and recommendations. However,
         the Agency indicated it had an on-board training program for training CTS
         technicians. In the draft report, we recommended that the Agency coordinate with
         the CTS Contracting Officer to better define the qualifications and skill level
         needed for CTS helpdesk staff. In response, CTS management provided us the
         results of an Agency audit of the CTS helpdesk staff's technical skills and
         qualifications that took place during our audit. After reviewing these results, we
         removed our recommendation. Where appropriate, we modified the report.




                                         6

                                                                                    10-P-0194 





                                Chapter 3
CTS Lacks an Effective Quality Management Program
          EPA lacks an effective Quality Management Program that monitors all aspects of
          the contractor’s performance. The draft CTS Quality Assurance Surveillance
          Plan (QASP) defines key roles and processes to ensure quality work by the
          contractor. Although this key document was due at the onset of the CTS project,
          EPA has not finalized it, due to delays in establishing agreed-upon details with the
          contractor. As a result, EPA does not have a process to validate performance
          metrics data that are self-reported by the contractor. Without accurate
          performance feedback, EPA management may find it difficult to identify areas
          needing improvement and implement effective solutions.

CTS Quality Assurance Plan Is Not Finalized
          The CTS QASP dated March 2007 is still in draft as of April 2010. The plan
          describes procedures EPA will use to monitor the Service Providers
          contract/Letter of Obligation performance. The QASP focuses on examining the
          end products and services provided by the contractor. It also describes the
          methodology used to make both quantitative and qualitative evaluations of the
          contractor’s performance. A CTS representative stated that the draft QASP was
          hastily developed to meet Office of Management and Budget Circular A-76
          guidelines for a competitive sourcing proposal. The representative stated that the
          plan still needs to be tailored to fit the CTS model. For example, the CTS
          representative explained that in the CTS model, the roles and responsibilities
          outlined in the plan for Quality Assurance Evaluators (QAEs) are to be filled by
          the Zone Representatives. However, the QASP still lists the positions as QAEs.
          The Agency reported that the QASP will be finalized in early February 2010.
          However, the plan was not complete as of April 2010.

Contractor Performance Measurements Are Not Validated by EPA
          The validity of performance metric numbers being met each month is uncertain
          because EPA does not have a process in place to validate the measurements that
          are self-reported by the contractor. These measurements include customer
          satisfaction ratings and the timeliness of helpdesk responses and resolutions,
          hardware installs, and incident reporting. Performance measurement reports
          dated December 2008 through September 2009 produced by the contractor show a
          monthly average of 20 out of 44 metrics have not been met. According to a CTS
          representative, some contractor reports were rejected because data appeared
          incorrect. The CTS representative stated the Agency is working with the
          contractor to examine the methodology used for each of the performance
          measures. Also, the Agency plans to develop Independent Verification and


                                           7

                                                                                     10-P-0194 



         Validation (IV&V) standards and processes for each of the 44 metrics. However,
         as of October 2009, EPA was in preliminary project discussions and lacked a
         process to gather independent performance data or validate the performance data
         being reported by the contractor. Measuring and tracking contractor performance
         is critical to ensuring that the Agency is obtaining contractually required services
         and an indicator that certain types of benefits are, or are not, being achieved (e.g.,
         improved user satisfaction). In addition, these data are ultimately used in
         calculating an award fee for the CTS contractor. Without a process in place to
         verify contractor performance, the contractor could receive a monetary award
         without having actually met award criteria.

Recommendations
         We recommend that the Director, Office of Technology Operations and Planning,
         Office of Environmental Information:

         3-1    Finalize the QASP and verify the plan is tailored to reflect the CTS
                business model.

         3-2    Develop and implement an IV&V process for each of the 44 performance
                metrics.

Agency Response and OIG Comments
         The Agency agreed with the findings and recommendations.




                                           8

                                                                                 10-P-0194 





                               Chapter 4

       CTS Business Processes Are Not Defined
         The contractor has not completed key planning and operational documents that
         outline critical business processes. The CTS PWS cites that the CTS Service
         Provider is responsible for documenting all efforts associated with the PWS,
         including supporting documents for installing, testing, and operating the systems.
         A CTS representative stated insufficient time was allocated to project planning,
         which led to incomplete and untimely deliverables from the contractor. This
         delay occurred because the same contractor staff integral to the CTS deployment
         were also responsible for developing these key documents. Success in
         implementing desktop services management rests in large part on thorough
         preparation and planning before deployment. Without this, significant problems
         could occur during deployment. Further, without complete documentation of key
         business processes, the Agency has no standard in which to measure the
         completeness, quality, and accuracy of the contractor’s products and performance.

Key Planning and Operational Documents Are Not Complete
         As of January 2010, the contractor has yet to complete key planning and
         operational documents, due in June-July 2008, to EPA standards. The documents
         are:

            •   Configuration Management Plan,
            •   Phase-In Plan,
            •   Program Management Plan,
            •   Quality Control Plan, and
            •   Standard Operating Procedures.

         While the contractor provided these deliverables, EPA rejected the documents
         because required standards had not been met. A contractor performance
         evaluation cited

                …the content of the documentation was not fit for its intended
                 purpose, which was to describe the processes and procedures
                that would accomplish the overall requirements of the PWS. The
                documents lacked clarity and appropriate details, did not reference
                industry standards cited in the contract, and did not include the
                required schedule for completion of specific tasks in the plan.




                                          9

                                                                                  10-P-0194 



         Also, the contractor has not provided all required recurring reports such as status
         reports, issue tracking reports, and inventory reports. Even though the contractor
         had not completed these documents to the Agency’s satisfaction, the EPA
         contracting office made payment to the contractor for these deliverables. Without
         these key planning and operational documents, management can not verify that
         PWS requirements are being carried out as planned.

         In response to the draft report, management indicated they are using the award fee
         process as a way of imposing consequences on the contractor for nonperformance.
         Although, the purpose of the award fee should to motivate the contractor to meet
         performance metrics it does not include contractor’s performance pertaining to
         developing key planning and operational documents. As such, it is critical that
         management establish milestones for delivering these key documents and internal
         control processes to ensure deliverables are approved before payment.

Security Planning Was Not Complete
         One of the more critical documents that the contractor did not complete was the
         CTS Security Plan. As with the other overdue CTS documents from the
         contractor, the security plan submitted did not meet EPA requirements and was
         rejected. To move forward with the certification and accreditation (C&A) of
         CTS, EPA had to rewrite the Security Plan (a required C&A document). This
         critical document was not approved until November 2009. Further, the
         contingency planning portion of required CTS security documents was also not
         completed until January 2010. Without security planning documents in place,
         management could not be reasonably assured of the security and availability of
         the system and that Agency operations would continue in the event of a disaster.

Recommendations
         We recommend that the Director, Office of Technology Operations and Planning,
         Office of Environmental Information:

         4-1    Document milestones for completing overdue and future contractor
                deliverables.

         4-2    Document the process used to verify deliverables are complete and
                accepted prior to paying contractor. This should include withholding
                future payments to contractor until required deliverables are delivered and
                approved.

Agency Response and OIG Comments
         In general, the Agency agreed with the findings. Management indicated
         milestones have been developed and are in place for the required contractual
         deliverables, and management will document these in the project plan by


                                         10

                                                                        10-P-0194 



September 15, 2010. The Agency also indicated it has a process in place to
ensure deliverables are completed and accepted prior to payment. However,
management indicated they have not documented the process. Management
indicated they have an award fee process in place, but an award fee has not been
paid to the contractor up to this point. Management needs to document the
processes used for evaluating performance. Where appropriate, we modified the
report.




                                11

                                                                                  10-P-0194 





                               Chapter 5

   Key CTS Positions Are Not Permanently Staffed 

         EPA did not have a permanent, full-time CTS Program Manager during the
         12-month deployment. The CTS Continuing Governance Organization (CGO)
         positions remain vacant as of November 2009. The CGO provides management
         oversight of the CTS deployment and continued operations for over 11,700 end
         users. The technical proposal states that the above positions were to be in place
         by October 1, 2007. Problems encountered during the Program Manager hiring
         process resulted in a vacancy of the CGO positions. As a result, deploying over
         11,700 computers was burdened with problems and created a frustrating transition
         for end users. This may result in a sustained negative impression of CTS that the
         Agency will need to overcome for users to accept and support continuing the CTS
         environment.

Permanent Program Manager Position Vacant During Deployment
         The CTS deployment period lacked a permanent full-time Program Manager, a
         key management position for this project. This MEO team position is responsible
         for activities such as developing policies, performing long- and short-term
         planning, managing customer focused activities, and meeting service performance
         measures. The CTS technical proposal required this position to be in place before
         starting deployment. However, the Program Manager position was filled in an
         acting capacity on a part-time basis until hiring someone full-time at the end of
         September 2009, the last month of the deployment period. The staff member
         filling the role on a part-time basis was also responsible for heading an OEI
         branch during this time. This management official stated that performing both
         roles left an insufficient amount of time available to perform the CTS Program
         Manager duties.

         Two key areas of CTS affected by this lack of time were communications and
         developing processes and procedures for deployment--both key planning areas
         that, if neglected, can negatively impact a project. Agency managers and end
         users stated that better communication was needed and that the CTS deployment
         lacked key procedures and processes. Staff members responsible for coordinating
         with CTS for the computer installations at their location stated that the
         communication plan was not sufficient to make them feel prepared for the
         deployment. They also stated that if they had not taken the lead on preparing their
         office for the deployment, the situation would have been more problematic. Staff
         members also stated that without their proactive and follow-up actions before and
         during the deployment, it would have been more problematic.




                                         12

                                                                                   10-P-0194 



Most Efficient Organization Oversight Team Not in Place
          The CGO is a leadership team intended to govern activities of the CTS team. The
          CGO positions were originally planned to be in place by October 1, 2007, before
          the deployment. However, as of November 2009, the four CGO positions were
          still vacant. These positions are Program Manager, Project Officer, Technical
          Architect, and Service Manager. A CTS representative stated that these vacancies
          hindered the deployment. An example given by the CTS representative was
          problems encountered by eBusiness (an Agency system used by CTS for ordering
          computers and related hardware and the billing of this equipment). The
          representative stated that the CGO Service Manager position could have used the
          assistance of eBusiness to avoid many of the problems encountered during the
          deployment. When questioned about the delay in hiring the CGO positions, a
          representative stated that the MEO positions took priority over these positions.
          The lack of guidance that this oversight board could have provided may have
          caused many of the issues and delays in CTS deployment activities. Hiring these
          positions as soon as possible will provide the management oversight and guidance
          needed to assist in reducing and remediating problems during the operations and
          maintenance phase of the CTS project.

Recommendation
          We recommend that the Director, Office of Technology Operations and Planning,
          Office of Environmental Information:

          5-1	   Give priority to filling all four CGO vacancies, and establish a milestone
                 date.

Agency Response and OIG Comments
          The Agency agreed with the findings and recommendation.




                                          13

                                                                                                                                       10-P-0194



                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1       Action Official           Date      Amount      Amount

    2-1       6     Develop and implement a process to help meet all         O                Director,          01/15/11
                    performance metrics related to CTS helpdesk                        Office of Technology
                    responsiveness.                                                  Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    2-2       6     Document a catalog of all helpdesk processes and         O                Director,          12/15/10
                    train all CTS technicians on these respective CTS                  Office of Technology
                    processes, procedures, and technologies.                         Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    2-3       6     Implement the use of the Knowledge Base                  O                Director,          01/30/11
                    component in the trouble ticket system.                            Office of Technology
                                                                                     Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    3-1       8    Finalize the QASP and verify the plan is tailored to      O                Director,          04/01/11
                   reflect the CTS business model.                                     Office of Technology
                                                                                     Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    3-2       8     Develop and implement an IV&V process for each           O                Director,          02/15/11
                    of the 44 performance metrics.                                     Office of Technology
                                                                                     Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    4-1       10    Document milestones for completing overdue and           O                Director,          09/15/10
                    future contractor deliverables.                                    Office of Technology
                                                                                     Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information

    4-2       10    Document the process used to verify deliverables         O                Director,          09/15/10
                    are complete and accepted prior to paying                          Office of Technology
                    contractor. This should include withholding future               Operations and Planning,
                    payments to contractor until required deliverables                Office of Environmental
                    are delivered and approved.                                             Information

    5-1       13    Give priority to filling all four CGO vacancies, and     O                Director,          09/15/10
                    establish a milestone date.                                        Office of Technology
                                                                                     Operations and Planning,
                                                                                      Office of Environmental
                                                                                            Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 14

                                                                                        10-P-0194


                                                                                   Appendix A

                  Agency Response to Draft Report

                                         July 12, 2010




MEMORANDUM

SUBJECT:       OEI Comments on the Draft Report: EPA Needs to Improve Management
               Practices to Ensure a Successful Customer Technology Solutions Project, Audit
               No: OMS-FY09-0004

FROM:          Vaughn Noga, Director
               Office of Technology Operations and Planning
                And Chief Technology Officer

TO:            Rudy Brevard, Director
               Information Resources Management Assessments
               Office of Inspector General


     We appreciate the opportunity to review the draft Report, “EPA Needs to Improve
Management Practices to Ensure a Successful Customer Technology Solutions Project.”

        In general, we found the report was an accurate reflection of the Customer Technology
Solutions (CTS) service at the time of the audit and activities that will improve the service. We
concur with some of the findings and recommendations; however, given the duration of time
between the audit, conducted in April 2009, and the final report, provided in June 2010, many of
the findings and subsequent recommendations have been accomplished. Please refer to the
associated Corrective Action Plan for further details.

        If you have any questions regarding this report, please contact me at 202-564-6665, or
your staff may contact Michael Fays at 202-566-0438.

cc:    	Johnny Davis
       Liza Hearns
       Michael Fays




                                               15

                                                                                                                             10-P-0194


                                           Office of Environmental Information
                                                  Corrective Action Plan

Auditing Group: OIG                          Audit Title: EPA Needs to Improve Management Practices to Ensure a Successful
Audit No.: OMS-FY09-0004                     Customer Technology Solutions Project (draft)
Report Date: June 10, 2010                   OEI Lead and Phone: Michael Fays 202-566-0438
OEI Lead Office: OTOP/EDSD

      Recommendation                       Corrective Action                Planned                Status / Actions Taken
                                                                        Completion Date
2-1 Develop and implement a      2-1-1 Develop a process to help meet   2010/11/15        2-1-1 PM attainment levels have trended in a
process to help meet all               PM on responsiveness                               positive manner as follows:
                                                                                          -- April 2009: 47%
performance metrics (PM)                                                                  -- April 2010: 73%
related to CTS helpdesk          2-1-2 Implement process                2011/01/15
responsiveness.                                                                           This has been accomplished through focus on
                                                                                          specific metrics and issues, along with rigorous
                                                                                          analysis of metrics calculations.
                                                                                          Efforts in this respect will continue and a
                                                                                          formal process will be documented.

2-2 Document a catalog of all    2-2-1 Develop a helpdesk process       2010/12/15        2-2-1 Knowledge articles continue to be
helpdesk processes.              catalog                                                  developed based on operational requirements;
                                                                                          the appropriate documentation will be
Develop and implement a                                                                   compiled into a process catalog by the indicated
process to train all CTS                                                                  date.
technicians on the respective
CTS processes, procedures, and   2-2-2 Develop process to train CTS     2010/10/01        2-2-2/2-2-3 Non-concur. An onboarding
technology.                      technicians                                              training program is currently followed for all
                                                                                          CTS technicians to ensure skills and knowledge
                                                                                          remain consistent with the needs of the CTS
                                 2-2-3 Implement process to train         2010/11/15      customer base.
                                 technicians
2-3 Coordinate with the CTS      Describe work CO and audit has done to 2010/10/15        Non-concur. EPA instituted an audit in early
Contracting Officer to better    define qualifications and skill level of                 2010 through OARM regarding the technical
                                                                                          skills and qualifications of the contractor
define the qualifications and    CTS staff.                                               technical staff; the results of this audit are
skill level needed for CTS                                                                pending.



                                                                16

                                                                                                                                 10-P-0194 



helpdesk staff.
2-4 Implement the use of the       Implement the use of Knowledge Base          2011/01/30
Knowledge Base component in        component in the Remedy system.
the trouble ticket system.
3-1 Finalize the QASP and          3-1-1 Finalize the QASP                      2011/04/01   The team plans to first ensure the QASP is
verify the plan is tailored to     3-1-2 Verify the QASP is tailored to         2010/12/15   relevant to the CTS operation, and then will
                                                                                             work to finalize by the indicated date.
reflect the CTS business model.          reflect the CTS business model
3-2 Develop and implement an       3-2-1 Develop IV&V process for the           2011/01/15
IV&V process for each of the       PMs
44 performance metrics.
                                   3-2-2 Implement the IV&V process             2011/02/15
4-1 Establish a milestone for      Establish milestones in project plan for     2010/09/15   Non-concur. Milestones have been developed
completing overdue CSC             overdue deliverables. Per schedule in                     and are in place for the required contractual
                                                                                             deliverables, and will be documented by the
deliverables and verify            project plan, verify the deliverables meet                indicated date.
deliverables meet EPA              EPA standards
standards.
4-2 Determine whether              4-2-1 Determine compensating                 2010/08/15
compensating measures are                measures needed for key
needed until key documents are           documents
delivered, and if so, establish
those measures.                    4-2-2   Establish project plan for           2010/09/15
                                           establishing those measures.

4-3 Verify all deliverables are    Verify process to ensure deliverables are    2010/09/15   Non-concur. CTS Program Manager/EPA
complete and accepted prior to     complete and accepted prior to payment.                   Team and the Contracting Officer are aligned
                                                                                             regarding the criteria that constitute quality and
paying contractor.                                                                           complete deliverables that warrant payment; the
                                                                                             process governing this approach is in place, and
                                                                                             will be documented by the indicated date.
4-4 Coordinate with the CTS        Coordinate with CTS CO to impose             2010/09/15   Non-concur. This is in place today. The
Contracting Officer to impose      consequences for failed delivery.                         Award Fee process inherent to the contract is
                                                                                             utilized and, up to this point, the contractor has
consequences when contractor                                                                 not received an Award Fee. Additionally, the
fails to deliver products and                                                                EPA team continues to diligently document
services according to contracted                                                             and reject contractor’s proposed PM attainment
                                                                                             levels on metrics for where there is not



                                                                      17

                                                                                                                             10-P-0194 



timelines. This should include                                                            consensus regarding the validity of the
withholding future payments to                                                            calculation. The actual process will be
                                                                                          documented by the indicated date.
CSC until all required
deliverables are delivered.
5-1 Give priority to filling out   Outline priorities for filling CGO        2010/09/15   CTS Program Manager position was filled in
all four CGO vacancies, and        vacancies and establish milestone dates                September 2010. Technical Manager position
                                                                                          was filled March 2010. A plan for filling the
establish a milestone date.        for filling vacancies                                  remaining positions is underway and will be
                                                                                          documented, along with target dates, by the
                                                                                          indicated date.




                                                                    18

                                                                                      10-P-0194 



                                                                                  Appendix B

        OIG Hotline Complaint Category Descriptions

The table below shows the 113 OIG hotline complaints by category and the number of times that
each of the six issues was cited. (Note: Some of the 113 complaints had more than 1 issue.)

Table A-1: OIG Hotline Complaint Categories with Number of Occurrences
  Technician         Helpdesk                    “Deployment
                                    Printers                       Hardware         Non-CTS
   Skill Level   Responsiveness                   Day” Issues
       16               51             21             10              37               42
Source: OIG compilation and analysis.


   •	 The “Technician Skill Level” category incorporates users’ comments about CTS
      technicians not possessing the appropriate skill level to complete an assigned task or
      duty.
   •	 The “Helpdesk Responsiveness” category captures complaints related to long on-hold
      times when calling the helpdesk, technicians taking a long time to respond to a help
      request, or a lengthy issue resolution time.
   •	 The “Printers” category incorporates complaints related to new CTS printers (mostly
      issues related to duplex printing) and connectivity issues with existing non-CTS printers.
   •	 The “Deployment Day Issues” category captures complaints of problems only 

      experienced on the day of deployment. 

   •	 The “Hardware” category captures complaints that the new CTS hardware is “inferior” to
      what existed and slow start-up times on the new equipment. In most cases, slow start-up
      times of new hardware were due to heavy network traffic during deployment and
      improved after the specific site deployment was complete.
   •	 The “Non-CTS” category incorporates problems related to FDCC standards, email 

      system upgrade, encryption, and general setting problems. 





                                              19

                                                                                       10-P-0194


                                                                                 Appendix C

                                     Distribution

Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Director, Office of Technology Operations and Planning, Office of Environmental
       Information
Director, Enterprise Desktop Solutions Division, Office of Environmental Information
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for External Affairs and Environmental Education
Audit Follow-up Coordinator, Office of Environmental Information
Inspector General




                                              20

